                         1




                                                NATIONAL SCIENCE FOUNDATION
$@ !                                             OFFICE OF INSPECTOR GENERAL

 .
a:                                                 OFFICE OF INVESTIGATIONS
 4
  0                                        CLOSEOUT MEMORANDUM
     OND a<\'


Case Number: A02120056                                                                      Page 1 of 1



       The Office of Inspector General (OIG) at the National Science Foundation (NSF) received an
       allegation that a visiting scientist1,working in the capacity of Program office?, participated in
       the handling of a proposal3 in which a person4 with whom he had a close personal relationship
       was named as "Research AssociateICo-Investigator."

       The OIG investigation did not discover any evidence that the program officer had a relationship
       with the "Research AssociateICo-Investigator" which would have violated 18 U.S.C. $208, Acts
       Affecting a Personal Financial Interest; or NSF Manual 15, Conflicts of Interest and Standards of
       Ethical Conduct. During the interview of the program officer, he denied ever sharing a
       household with the "Research AssociateICo-Investigator" or having any other joint financial
       interests with her.

       Accordingly, this case is closed.




       1
       2
       3
       4




                          Agent                   Attorney                Supervisor                  AIGI

  Sign 1 date

                                                                                              OIG Form 2 (2102)
                                                                                                                  \   P
